              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




   Management Operating Data System

                      Audit Report




                                         December 13, 2011

Report Number CRR-AR-12-002
                                                                     December 13, 2011

                                                 Management Operating Data System

                                                        Report Number CRR-AR-12-002



IMPACT ON:                                    accurate MODS data in mail processing
The allocation of mail processing costs to    variability studies would have a
U.S. Postal Service products and the          significant impact on costs attributed to
reliability of Postal Service cost            postal products. As a result, some
avoidance estimates.                          products that are currently identified as
                                              not covering their attributable costs
WHY THE OIG DID THE AUDIT:                    (underwater products) could actually be
Our objectives were to determine the          covering costs, and vice versa.
impact Management Operating Data
System (MODS) data would have on              WHAT THE OIG RECOMMENDED:
MODS-based productivities and their           We recommended the Postal Service
associated cost avoidance models and          develop a monthly report identifying
the attribution of mail processing costs to   MODS operation numbers and facilities
Postal Service products.                      with frequent errors, expand current
                                              reports to include observations that
MODS is an operations system that             exceed automated and manual
measures productivity by matching             capabilities, and implement controls
employee workhours with mail volume           within MODS that enforces the require-
using a series of operation numbers that      ment for facility managers to correct
identify what work was performed.             MODS errors. We also recommended
                                              management correct MODS errors at
WHAT THE OIG FOUND:                           facilities and evaluate whether alternate
Additional steps are needed to provide        quality assurance procedures would
more accurate mail processing and cost        provide more reliable results.
avoidance estimates. Management
should focus corrective actions on those      WHAT MANAGEMENT SAID:
MODS operation numbers and facilities         Management concurred with our findings
that are creating the most significant        and recommendations but disagreed with
number of MODS errors. In addition,           our calculation of monetary benefits.
management can improve data quality
review procedures and use alternative         AUDITORS’ COMMENTS:
methodologies to further minimize the         The U. S. Postal Service Office of
effect of MODS errors. We analyzed the        Inspector General considers
impact of alternative methodologies on        management’s comments to be
two cost avoidance models, and                responsive to the recommendations, and
estimated the revised workshare               corrective actions should resolve the
discounts could have resulted in              issues identified in this report.
$86.8 million in reduced workshare            Link to review the entire report
discounts and increased revenue. Using
December 13, 2011

MEMORANDUM FOR:            MEGAN J. BRENNAN
                           CHIEF OPERATING OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           DAVID E. WILLIAMS
                           VICE PRESIDENT NETWORK OPERATIONS
                           MANAGEMENT



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Systems

SUBJECT:                   Audit Report – Management Operating Data System
                           (Report Number CRR-AR-12-002)

This report presents the results of our audit of Management Operating Data System
(MODS) data used to calculate MODS-based productivities used in workshare cost
avoidance models (Project Number 11RG010CRR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Pricing, and Rates, or me at 703-248-2100.

Attachments

cc: Vice Presidents, Area Operations
    Luke T. Grossmann
    Joseph D. Moeller
    Corporate Audit and Response Management
Management Operating Data System                                                                                 CRR-AR-12-002




                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

MODS Data Reliability..................................................................................................... 3

MODS Data Quality Assurance Procedures.................................................................... 6

Alternative Data Quality Assurance Procedures ............................................................. 7

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 13

   Background ............................................................................................................... 13

   Objectives, Scope, and Methodology ........................................................................ 14

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Monetary Impact ....................................................................................... 17

Appendix C: MODS Operation Numbers ....................................................................... 19

Appendix D: Management’s Comments ........................................................................ 21
Management Operating Data System                                                                    CPR-AR-12-002



Introduction

This report presents the results of our audit of Management Operating Data System
(MODS) data used to calculate MODS-based productivities and attribute mail
processing costs to U.S. Postal Service products (Project Number 11RG010CRR000).
Our audit objectives were to determine the impact MODS data have on MODS-based
productivities and their associated workshare cost avoidance models and the attribution
of mail processing costs to Postal Service products. This self-initiated audit addresses
financial risk. See Appendix A for additional information about this audit.

The MODS, initially deployed in 1971, collects and reports data on mail volume,
workhours, and machine utilization at major mail processing facilities. MODS collects
and reports workhour and corresponding mail volume information using a matrix of
almost 800 3-digit operation numbers that designate activities (operations) performed in
Postal Service facilities.1 MODS workhours are collected from the Time and Attendance
Collection System (TACS) that has employees clocked into the MODS operation in
which they are working. Each employee is assigned a base MODS operation number. If
they are not assigned a base operation number, for example temporary employees,
TACS assigns a default operation number based on the work activity of the employee.

For mechanized and automated mail processing operations, MODS obtains mail volume
from mail processing machine counts.2 For other operations, such as manual
operations, where no mail volume is recorded, mail volume is automatically credited3
from associated mail processing machine counts.

The accuracy of MODS data is critical both operationally and for cost attribution. MODS
data are reviewed by field and headquarters managers to plan mail processing
activities, project workhours and mail volumes, and evaluate facilities’ efficiency. The
Postal Service Network Operations group developed MODS and is responsible for the
overall operation of the system.

MODS data are also used extensively in Postal Service costing and pricing activities,
such as for determining workshare discounts and cost coverage for specific products.
More specifically, MODS data are used to develop mail processing cost pools,4 which
are used to attribute mail processing costs to Postal Service products. This cost
attribution is part of the calculations performed to ensure prices charged for products
cover their attributable costs,5 and that market dominant products do not subsidize
competitive products.



1
  Major categories of activities include mail processing, delivery, customer service, maintenance, and so forth.
2
  The Web End of Run (WebEOR) information system.
3
  A percentage of mail volume is distributed to opening unit operations such as mail preparation and to mail
separation from automated and mechanized distribution operations.
4
  Mail processing activities are grouped into 61 cost pools; each cost pool is comprised of multiple MODS operation
numbers.
5
  Direct and indirect Postal Service costs that can be clearly associated with a particular postal product.
                                                          1
Management Operating Data System                                                                      CRR-AR-12-002



MODS data have also been a key input in numerous mail processing volume variability
studies. In economic terms, mail processing volume variability is the percentage change
in mail processing cost that would result from a percentage change in mail volume,
holding other factors equal. The volume variable portion of mail processing costs are
attributed directly to postal products, while the non-volume variable costs are
considered institutional costs and are not directly attributable.

MODS errors are a term given to MODS observations6 that logically should not occur.
Four common MODS errors include mail volume recorded in an operation but zero
workhours; workhours recorded in an operation but zero mail volume; first handling
piece (FHP)7 mail volume greater than total pieces handled (TPH)8 mail volume, and
negative mail volume. In addition, there are also observations where the ratio of
workhours to mail volume implies machine throughputs or manual productivities that are
either too low or too high to reflect actual operating conditions.

The Postal Regulatory Commission (PRC) has not accepted mail processing volume
variability studies conducted by the Postal Service and other interested parties, in part
because of ‘error-ridden’ MODS data that prevented accurate modeling.9 The PRC
noted that unless the quality of the MODS data improves, or alternative data are
developed, models that rely on MODS data would likely not be accepted by the PRC.

Conclusion

Although the Postal Service has taken steps to improve the overall accuracy of MODS
data, additional steps are needed to provide more accurate mail processing and cost
avoidance estimates. In fiscal year (FY) 2008, the Postal Service stopped weighing mail
to obtain mail volume estimates. This step reduced certain types of errors dramatically.
However, these changes have not materially reduced zero workhour and zero mail
volume errors. In FY 2010, about 27 percent of MODS observations were zero
workhour or zero mail volume errors.

To further address zero workhour and zero mail volume MODS errors, management
should identify and focus their corrective actions on those mail processing facilities that
are creating the most significant number of MODS errors. In addition, management can
improve their data quality review procedures to further minimize the effect errors have
on Postal Service cost estimates.

Improving the accuracy and reliability of MODS data can assist in preserving revenue
opportunities and transparency in cost allocation among mail products and institutional
costs. For example, reducing MODS errors could result in more accurate cost

6
  An observation is a record in the data that captures volume and workhours for an operation number at a facility for a
certain time period (for example, tour, day, week, or month).
7
  Mail volume recorded in the operation where it receives its first distribution handling within a postal facility.
8
  The total volume FHP and subsequent handling pieces for manual operations. For machine operations, TPH is total
pieces fed minus any reworks or rejects.
9
  PRC Docket Number R2006-1, Postal Rate and Fee Changes, 2006, Opinion and Recommended Decision, Volume
II, Appendix J, Mail Processing Variability.


                                                           2
Management Operating Data System                                                                       CRR-AR-12-002



avoidance estimates. We estimated that, all other factors remaining constant, improved
avoided cost estimates could have decreased Standard Mail® presort letters workshare
discounts. Lower discounts have the potential to increase Standard Mail revenue by
$86.8 million in FY 2010. Similarly, improved avoided cost estimates could have
increased First-Class Mail® presort letters and cards workshare discounts, and
decreased First-Class Mail revenue by approximately $300,000 in FY 2010.

In addition, our analysis showed new volume variability studies, based on improved
MODS data, have the potential to reallocate10 as much as $1.2 billion in mail processing
costs attributed to postal products. If the new variabilities resulted in a lower mail
processing variability estimate, mail processing costs would be reallocated from
attributable to institutional costs. This reallocation could affect the cost coverage11 of
various postal products, resulting in more products covering their attributable costs and
fewer products appearing to be ‘underwater.’12 However, if variabilities increased based
on updated variability studies, more costs would be attributed to products that would
decrease product cost coverage. Continued attention to reducing erroneous MODS data
can improve data integrity, increase public confidence in Postal Service cost and price
estimates, and preserve customer goodwill and the Postal Service brand. See
Appendix B for a description of the impact on volume variable costs.

MODS Data Reliability

A high percentage of MODS data continues to have zero workhour and zero mail
volume errors. Zero workhour errors occur when there is mail volume recorded in a
MODS operation, but zero corresponding workhours are recorded.13 We analyzed all
FY 2010 MODS data and found the highest number of zero workhour errors occurred in
a letter sorting operation.14 There were 1.9 billion pieces of mail recorded in that MODS
operation, with zero corresponding workhours.

The second type of MODS error, zero mail volume, occurs when there are workhours
recorded in a MODS operation but zero mail volume is recorded.15 In FY 2010, the
highest number of zero mail volume errors occurred in outbound platform operations.16
There were 2,675,472 workhours recorded in that MODS operation, with zero
corresponding mail volume.




10
   A reallocation of costs can occur when Postal Service costs are reclassified as volume variable, product specific, or
institutional costs. The total amount of actual reallocated costs would depend on how many MODS errors can be
corrected.
11
   The degree to which revenue from products cover their attributable cost is commonly referred to as ‘cost coverage.’
PAEA Section 3622(a) (2) specifies that market dominant products should cover their attributable costs.
12
   Postal Service products where product revenue does not cover costs attributed to the products.
13
   Excluding 344 MODS operation numbers where there is not a mail volume reporting requirement.
14
   MODS Operation Number 919, Delivery Bar Code Sorter/Delivery Input Output Sub System, Bar Code Sort Mode,
                                nd
Delivery Point Sequencing, 2 Pass.
15
   Excluding 28 MODS operation numbers where there is not a workhour reporting requirement.
16
   MODS Operation Number 212, Platform Operations - Outbound.


                                                           3
Management Operating Data System                                              CRR-AR-12-002



Overall, in FY 2009, 27.1 percent of monthly MODS observations were zero workhour
or zero mail volume errors. That percentage decreased slightly to 27 percent in
FY 2010. Table 1 depicts MODS errors in FYs 2009 and 2010.

                                   Table 1. MODS Errors




The percentage of monthly MODS observations with zero workhour or zero mail volume
noted in Table 1 likely understates the true number of erroneous MODS observations.
MODS data are collected by tour, and rolled up into daily, weekly, and monthly
observations. MODS errors that would be apparent by tour tend to be masked when
rolled up into a daily observation. The masking of MODS errors increases with the level
of aggregation and can be considerable by the time MODS data are aggregated by
month.

During our review we noted that:

   Twenty MODS operation numbers account for a high percentage of the MODS
    errors. In FY 2010, 71 percent of zero workhour errors were recorded in 10 of the
    355 MODS operation numbers where an error was recorded, while 67 percent of
    zero mail volume errors were recorded in another 10 MODS operation numbers. See
    Appendix C for a listing of the 20 MODS operation numbers.

   MODS facilities often misreport MODS data throughout the entire year. In FY 2010,
    70 percent of MODS facilities reported mail volume but zero workhours in at least
    one operation for the entire year. Additionally, 80 percent of MODS facilities reported
    workhours but zero mail volume in at least one operation for the entire year.

We reviewed MODS errors at 33 mail processing facilities; the facilities reported that
MODS errors were caused by:




                                             4
Management Operating Data System                                               CRR-AR-12-002




   Employees clocking into an incorrect operation;
   Employees clocking into their default operation but actually working on another
    operation.
   Incorrect auto-credit down flows, where mail volume is automatically credited to an
    operation; but employees are clocking into a different operation. When this occurs,
    mail volume will be recorded in a MODS operation, but no workhours are recorded.

There are several steps the Postal Service can take to reduce the number of zero
workhour and zero mail volume MODS errors and increase the reliability of MODS data.
To improve the reliability of Postal Service cost estimates, MODS errors need to be
corrected timely at the source facility; by tour, day, week, and month.

In our 2009 MODS audit, we found that 18.5 percent of MODS observations over a 1-
week period were errors (See Appendix A – Prior Audit Coverage). We recommended
additional training and reporting tools to reduce the number of MODS errors. The Postal
Service developed additional training materials and reports, but the number of MODS
errors has not decreased.

MODS errors must be prevented or corrected at the facility level, by ensuring
employees are clocked into the correct MODS operation, and ensuring auto-credit down
flows to allied operations are correct. If processing plant personnel focused on
correcting errors recorded in the 20 error-prone MODS operation numbers, and
corrected systemic MODS errors that occur every month, the Postal Service would
substantially decrease the number of MODS errors and improve the reliability of MODS-
based productivities.

Reducing the number of MODS errors would also improve the reliability of MODS data
and increase the likelihood that MODS data could be used in mail processing volume
variability studies. Past studies have estimated mail processing variability ranged from
73 percent to over 100 percent. Absent volume variability studies based, in part, on
reliable MODS data, the PRC has continued to use the assumption that almost
100 percent of mail processing costs are volume variable. As a result, the Postal
Service classified 94 percent of the $12.1 billion in FY 2010 mail processing costs as
volume variable ($11.4 billion) and directly attributed to postal products.

Changes in the variability estimate can have a significant impact on the attribution of
Postal Service costs. The most recent Postal Service volume variability study estimated
that 85 percent of mail processing costs were volume variable. Use of a lower variability
estimate (for example, 85 percent rather than 94 percent) would reduce mail processing
costs that are directly attributable to postal products, and increase institutional costs by
a comparable amount. This potential cost transfer would occur, because a substantial
component of the mail processing costs treated as volume variable would no longer be
volume variable. A large transfer of costs between attributable and institutional costs
could influence postal rates, costs attributed to postal products, and product cost
coverage.



                                             5
Management Operating Data System                                                                CRR-AR-12-002




Further, reliance on volume variabilities substantially below 100 percent may result in
lower workshare discounts. Workshare discounts are designed to reflect the cost
avoided by worksharing activities. With less costs attributed to postal products, there
would potentially be less avoided costs that could lower the workshare discounts for
products. Raising the variability above the current 94 percent would have the reverse
affect. It would increase the percentage of mail processing costs attributed to postal
products and reduce institutional costs by a comparable amount.

A revised mail processing volume variability analysis based on the increased reliability
of MODS data could affect the allocation of $1.2 billion in mail processing volume
variable costs. See Appendix B for a description of the impact on volume variable costs.

MODS Data Quality Assurance Procedures

Although finance personnel use quality assurance procedures to review and remove
zero workhour and zero mail volume MODS errors before calculating MODS-based
productivities, these procedures are based on assumptions that might no longer be
valid. Re-evaluation of these procedures could improve the reliability of MODS data and
improve the accuracy of MODS-based productivities.

Productivity Groups

Finance personnel combine each facility’s observations at the productivity group level to
limit the influence of zero workhour and zero mail volume errors. For example, an
observation at a MODS facility might be 1 month of workhour and mail volume
observations recorded in operations 491 and 492, which are mapped to Productivity
Group 1 (Advanced Facer Canceller System/Input Subsystem Outgoing Primary and
Secondary Letters). In rolling these observations into the productivity group, some
errors may cancel each other out, such as when workhours are recorded to operation
491, but the corresponding mail volume is recorded under operation 492.17 In this
example, a facility could report zero workhours but 10 million mailpieces in operation
491 for the month of July 2010. For that same month, the facility could report
10,000 workhours but zero mail volume in operation 492. Before finance personnel
screen for MODS errors, they would combine the July 2010 results for operations 491
and 492. As a result, the combined observation from both operation numbers would
have 10,000 workhours and 10 million mailpieces. These procedures reduce the total
number of zero workhour or zero mail volume errors under the assumption that the
‘missing’ hours or ‘missing’ volume was charged to another MODS operation number
that is also mapped to the same productivity group.

In the preceding example, the missing (zero) workhours from operation 491 were
actually recorded in operation 492, while the mail volume was recorded in operation
491. Under this scenario, the workhours and mail volume would correctly aggregate as

17
  This happens due to ‘misclocking’ including cases where employees move among operations without reclocking for
reasons of operational efficiency.


                                                       6
Management Operating Data System                                               CRR-AR-12-002



one observation to Productivity Group 1. Management also assumes the combined
observations tend to be more reliable than the disaggregated observations.

However, data we examined did not support all of the assumptions finance personnel
used in aggregating facility observations at the productivity group level. Specifically, our
review of MODS errors and discussions with management at 33 mail processing
facilities determined that:

   Only 14 percent of the zero workhour and zero mail volume errors aggregated to the
    same productivity group as assumed by finance personnel.
   About 52 percent of the zero workhour and zero mail volume MODS errors did not
    aggregate to the same productivity group. In other words, the facilities recorded the
    workhours or mail volume in operation numbers not mapped to the same productivity
    group or not mapped to any productivity group at all.
   For 31 percent of the zero workhour or zero mail volume errors, management could
    not identify the correct operation number where the workhours or mail volume
    should be recorded.
   Three percent of the zero workhour or zero mail volume errors aggregated to
    multiple productivity groups.

Cost Pools

MODS operation numbers are also used to develop mail processing cost pools. Mail
processing employee workhours are recorded in MODS operation numbers that are
mapped to one of 61 cost pools. As they do with productivity groups, management also
aggregates MODS errors to cost pools. For the MODS errors at the 33 facilities:

   57 percent of the zero workhour and zero mail volume errors aggregated to the
    correct cost pool, 9 percent did not.

   For 31 percent of the zero workhour or zero mail volume errors, management could
    not identify the correct operation number where the workhours or mail volume was
    recorded, and 4 percent were recorded in multiple operation numbers.

Because management could not identify the correct operation number for 31 percent of
the zero workhour or zero volume errors, we were unable to quantify the specific
aggregate effect on the mail processing cost pools. Improving the reliability of MODS
data would improve the accuracy of mail processing cost pool estimates and impact the
attribution of costs to postal products. As such, it should be a high management priority
in assessing mail plant efficiency and allocating costs to Postal Service products.

Alternative Data Quality Assurance Procedures

Although we agree that MODS errors should be mitigated by operations managers to
the extent practical, there may be a subset of errors that are not or cannot be corrected
at the lowest level by operations managers. In these cases, finance personnel should



                                             7
Management Operating Data System                                                                      CRR-AR-12-002



explore alternate ways to review and address the errors and outlying productivities to
produce more accurate data and more transparent results. However, to maximize the
effectiveness of these alternative procedures, the number of MODS errors must be
reduced by operations managers first. Reducing the number of MODS errors would
allow Finance to remove unreliable MODS data but still leave enough observations for
reliable estimates.

In the past, the Postal Service and other interested parties attempted to overcome
MODS data quality problems through various data screenings and ‘scrubs,’ which were
intended to remove MODS errors and observations that were outside maximum and
minimum productivity rates. This scrubbing dramatically reduced MODS sample sizes
and affected the variability studies, either because the erroneous MODS data were
removed or because there were drastic reductions in sample sizes.

Applying alternative quality assurance procedures to FY 2010 MODS data, we found
that:

          Finance personnel could remove almost twice as many zero workhour and zero
           mail volume observations if they removed these errors before aggregating facility
           observations at the productivity group level. For example, using the above
           example with operations 491 and 492, the zero workhour and zero mail volume
           observations in operations 491 and 492 could be eliminated within each
           operation number before aggregating them in Productivity Group 1. If this
           alternative methodology was used in FY 2010, 52 percent of the errors that do
           not aggregate to the same productivity group, along with 31 percent of the errors
           that were recorded in undetermined operation numbers, would be removed from
           the MODS data. Table 2 shows FY 2010 zero workhour and zero mail volume
           observations removed under the current and alternative methodologies.

                             Table 2. Comparison of the Two Methodologies

                                                                               Errors
                                   Methodology                               Eliminated
                       Current Methodology18                                   14,555
                       Alternative Methodology19                               25,168
                        Increase in Error Eliminations                         10,613
                        Percentage Increase                                     73%

          Finance personnel could perform additional reviews of the MODS-based
           productivities by eliminating productivities that exceed maximum machine
           throughputs or manual productivities. Under the current methodology, after
           removal of zero workhour and zero volume errors, a fiscal year productivity is
           calculated, by facility, for each of the 85 productivity groups. Then, to account for


18
     Removal of zero workhour and zero mail volume errors after aggregating to the productivity group level.
19
     Removal of zero workhour and zero mail volume errors before aggregating to the productivity group level.


                                                            8
Management Operating Data System                                                                           CRR-AR-12-002



         outliers,20 the top and bottom 1 percent of productivities in each group are
         eliminated. However, after the 1 percent data elimination, a large number of
         productivities still exceed maximum machine throughputs and manual operation
         productivities.




Using FY 2010 MODS data, we removed zero workhour and zero mail volume errors at
the MODS operation number level, and eliminated productivities that exceeded
maximum machine throughputs and manual productivities. We used these recalculated
productivities in the letter cost avoidance models21 and estimated the difference in
avoided costs for FY 2010 was $328,011 more than the Postal Service avoided cost
estimate for First-Class Mail presort letters. This mis-estimation of avoided costs has
the potential to lower potential revenue by the same amount. For Standard Mail presort
letters, we estimated the difference in avoided costs for FY 2010 was $86.8 million less
than the Postal Service avoided cost estimate. This mis-estimation of avoided costs has
the potential to increase revenue by $86.8 million.

Continued attention to reducing erroneous MODS data can improve data integrity,
increase public confidence in Postal Service cost and price estimates, and preserve
customer goodwill and the Postal Service brand. See Appendix B for additional
information on monetary and other impacts.




20
   Outliers are atypical, infrequent observations that do not appear to follow the characteristic distribution of the rest of
the data. These outliers may reflect actual properties of the underlying observation, or be due to measurement errors
or other errors.
21
   First-Class Mail Presort Letters and Cards and Standard Mail Regular Presort Letters Cost Models.


                                                             9
Management Operating Data System                                            CRR-AR-12-002




Recommendations

We recommend the vice president, Network Operations Management, direct the
manager, Network Development Support, to:

1. Develop a monthly report that identifies the top Management Operating Data System
   (MODS) operation numbers and facilities causing MODS errors.

2. Expand existing Management Operating Data System exception reports to include
   observations that exceed maximum machine throughput and manual productivities.

3. Issue monthly enhanced exception reports to management at the area, district, and
   facility level to highlight recurring Management Operating Data System errors at
   facilities.

4. Develop controls within the Management Operating Data System (MODS) that
   enforce the requirement for facility managers to correct MODS errors in a timely
   manner.

We recommend the chief operating officer and executive vice president, direct the vice
presidents, Area Operations, to:

5. Direct district and facility managers to mitigate and correct Management Operating
   Data System errors.

We recommend the chief financial officer and executive vice president, direct the
manager, Regulatory Reporting and Cost Analysis, to:

6. Monitor operation numbers where the majority of Management Operating Data
   System errors occur, and determine the potential impact on applicable cost data.

7. Evaluate existing quality assurance procedures to determine whether eliminating
   Management Operating Data System (MODS) errors at the facility level, and
   eliminating observations that exceed maximum machine throughputs or manual
   productivities, would improve the reliability of MODS based productivities.

Management’s Comments

Management concurred with our findings and recommendations. Management stated
they continue to take actions to reduce clock ring errors and improve volume reporting
by reducing redundancies in MODS operations numbers used in MODS and by working
to have a single set of operation numbers to reference across all facility types.
Management stated that operation numbers in MODS could be modified to virtually
mirror the costing groups used by Finance.




                                           10
Management Operating Data System                                             CRR-AR-12-002



For recommendations 1, 2, and 3, management will create a monthly report that ranks
facilities by the number of MODS operations errors, modify existing reports to identify
situations where productivities for operations are too high or too low, and provide area,
district, and facility managers with these monthly exception reports.

For recommendations 4 and 5, management will develop controls within MODS that
enforce the requirement for facility managers to correct MODS errors in a timely manner
and alert higher level managers of new and existing errors as well as escalation when
errors are not corrected timely.

For recommendations 6 and 7, management will review their existing quality assurance
procedures and adopt any revised procedures needed to improve the cost data.
Management will also continue to monitor operation numbers where the majority of
MODS errors occur and use quality assurance procedures to review and remove some
MODS data before calculating productivities.

Management did not agree with our calculation of monetary impact and stated that it is
incorrect to claim any monetary impact (positive or negative) by adjusting discounts or
adjusting the price gaps between products in a given class of mail. Management stated
that with the current constraints of the Consumer Price Index price cap for market
dominant mail classes, decreasing discounts for selected mail products does not lead to
more revenue. Further, if the cost studies were to suggest larger cost avoidances and
hence larger discounts, management stated this does not necessarily lead to less
revenue because prices could be increased for other components within a given class
of mail. Finally, management stated that having new MODS data should not be
construed to necessarily lead to estimated lower volume variabilities, that PRC approval
would be needed before any reallocation of costs between mail products and
institutional costs could occur, and that the outcome on costs or prices is difficult to
foresee. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report. Although management objected to our calculation of
monetary benefits, the OIG’s position is that persistent and uncorrected MODS errors
can result in changes in unit costs that can have an impact on net revenue for specific
mail classes of mail. We modified Appendix B to provide additional clarification that the
monetary impact is dependent not only on corrective actions taken on MODS data
quality but also management decisions regarding product pricing made within the
limitations of the Consumer Price Index price cap and unused rate authority available at
that time.

The OIG considers all of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the



                                            11
Management Operating Data System                                            CRR-AR-12-002



Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           12
Management Operating Data System                                              CRR-AR-12-002




                                Appendix A: Additional Information

Background

The MODS system, initially deployed in 1971, is a web-based application that collects
data from two Postal Service information systems: the TACS, and the WebEOR; for use
in evaluating plant efficiency.

     TACS is an automated timekeeping system that collects employee clock ring data
      used to develop MODS workhours. Employee badge readers are located throughout
      Postal Service facilities, when employees work at an activity they clock in and enter
      the 3-digit MODS operation number for that activity. The MODS system interfaces
      with TACS to import the workhour data for MODS reporting. To ensure employees
      get paid, each employee is assigned a base operation number or a default operation
      number. If employees clock into an operation but do not enter an operation number,
      TACS records their workhours in their base or default operation number.

     WebEOR is a web-based application used to collect mail volume counts from
      automated and mechanized mail processing equipment. For non-automated mail
      processing activities, such as manual operations, mail volume estimates are
      calculated as a percentage of WebEOR mail volume from mechanized and
      automated operations that flow mail to manual operations.

MODS workhour and mail volume data are stored in the Enterprise Data Warehouse
(EDW).

The Network Development Support Group within Network Operations manages the
overall operation of MODS. Each area is responsible for providing detailed direction for
accurately collecting MODS data and oversees the overall management of MODS
within its area. Each MODS facility is responsible for managing the overall operation of
MODS at that facility, to include reviewing daily MODS reports, providing training,
ensuring accurate workhour and mail volume recording, and correcting errors.

The Cost Attribution group within Regulatory Reporting and Cost Analysis at Finance is
an end user of MODS data primarily in costing activities. An external contractor uses
MODS data to calculate MODS-based productivities, and up until 2006, used MODS
data to develop mail processing volume variability estimates. In FY 2010, the Postal
Service used MODS data to allocate $12.1 billion in labor costs into mail processing
cost pools. This represents 16 percent of total Postal Service costs.

Although originally developed as an operations system, MODS has been used in Postal
Service costing and pricing activities since 199722.In Docket Number R97-1, the Postal
Service first proposed apportioning Cost Segment 3 mail processing costs by using the
MODS operation that employees were clocked into. The PRC concluded that MODS
22
     PRC Docket Number R97-1, Postal Rate and Fee Changes, 1997.


                                                      13
Management Operating Data System                                                  CRR-AR-12-002



pools were valid groupings of operations around common workload or ‘cost drivers’ and
adopted the Postal Service proposal to partition mail processing costs into operation-
specific MODS pools. However, the PRC decided that it could not use Postal Service
calculations of volume variable mail processing costs, in part because of ‘error-ridden’
samples from MODS. Postal Service procedures to ‘scrub’ the MODS data were
considered excessive, because they removed more than 22 percent of the observations
and ineffective because they were not well-designed for their stated purpose to remove
erroneous and atypical observations. Postal Service procedures to scrub the MODS
data included using threshold levels, eliminating unusual productivities, and eliminating
all the observations in the 1 percent tails of the distribution of productivities for the
activity.

Objectives, Scope, and Methodology

Our objectives were to determine the impact MODS errors and other excluded MODS
data have on MODS-based productivities and their associated workshare cost
avoidance models as well as the attribution of mail processing costs to Postal Service
products.

To assess the reliability of FY 2010 MODS data used to develop productivities, we
extracted FY 2010 MODS data from the EDW and, using Postal Service procedures,
reconciled our MODS data to the Postal Service MODS data.

To calculate the FYs 2009 and 2010 MODS errors, we extracted MODS data from the
EDW and eliminated MODS operations where mail volume reporting was not required
or optional. We then totaled four types of MODS errors: zero workhours but mail
volume, zero mail volume but workhours, FHP greater than TPH, and negative mail
volume.

To determine whether errors aggregated to the same productivity group or cost pool, we
judgmentally selected 40 mail processing facilities for further analysis. We selected the
top two facilities that reported the highest number of zero workhour and zero volume
errors in the top 10 zero workhour and top 10 zero volume operation numbers. Of the
40 facilities, five were on both lists. Of the 35 facilities we analyzed, two facilities did not
provide usable information. The remaining 33 facilities reported to us the correct MODS
operation number where workhour or volume should have been recorded and the
causes why the errors occurred.

To estimate the effect additional procedures would have on FY 2010 MODS-based
productivities, we removed zero workhour and mail volume errors at the MODS
operation number level. We removed the remaining high productivities that exceeded
machine throughputs and manual productivities that exceed targets by 50 percent.
Following the same methodology used in the top and bottom 1 percent data scrub, we
removed an equal number of high and low observations from each data set and
calculated average productivities.




                                               14
    Management Operating Data System                                                CRR-AR-12-002



    We conducted this performance audit from February through December 2011 in
    accordance with generally accepted government auditing standards and included such
    tests of internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objectives. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objectives. We discussed our
    observations and conclusions with management on October 26, 2011, and included
    their comments where appropriate.

    We assessed the reliability of computer generated data by extracting FY 2010 MODS
    data from EDW and comparing our data to FY 2010 MODS data the Postal Service
    used to calculate productivities. We also verified the accuracy of certain MODS errors
    with respective facility managers. We determined that the data were sufficiently reliable
    for the purposes of this report.

    Prior Audit Coverage

                      Report           Final Report
  Report Title        Number               Date                Final Report
Management           MS-AR-07-          8/21/2007     MODS data were valid
Operating Data          003                           and reliable when used
System                                                for the purpose for which
                                                      it is intended – to assess
                                                      overall plant efficiency.
                                                      However, controls were
                                                      not effective in ensuring
                                                      that volume and workhour
                                                      data recorded against
                                                      MODS operation numbers
                                                      was valid. We
                                                      recommended certain
                                                      system-wide internal
                                                      control improvements to
                                                      include updating outdated
                                                      policies, procedures, and
                                                      on-line training materials.
                                                      Management agreed with
                                                      our findings and
                                                      recommendations.




                                                 15
    Management Operating Data System                                                  CRR-AR-12-002



Follow-up Audit       CRR-AR-          4/14/2009        Operational changes had
of the                 09-004                           reduced the number of
Management                                              errors in MODS data, but
Operating Data                                          about 18.5 percent of
System                                                  MODS data for a 1-week
                                                        period still contained
                                                        errors. The root causes of
                                                        MODS errors were
                                                        primarily misclocking and
                                                        auto-credit issues that
                                                        could be mitigated with
                                                        streamlined MODS
                                                        operation numbers. We
                                                        recommended training
                                                        that emphasized the
                                                        importance of clocking
                                                        into the correct MODS
                                                        operations, and training in
                                                        the use of MODS
                                                        exception reports to
                                                        identify and correct
                                                        recurring errors.
                                                        Management agreed with
                                                        our findings and
                                                        recommendations.




                                                   16
Management Operating Data System                                           CRR-AR-12-002




                              Appendix B: Monetary Impact

  Finding                                       Impact Category              Amount

                                                                            (328,011)

                                                                           86,818,955
                                                                           86,490,944

Impact on Cost Avoidance Models

We estimate that the FY 2010 avoided cost estimates for Presort First-Class Mail letters
and cards were underestimated by a unit cost average of .001 cents per mailpiece. As a
result, holding all other inputs constant, had the workshare discount been .001 cents
higher, the Postal Service would have collected $328,011 less revenue from Presort
First-Class Mail letters and cards workshare discounts.

To develop our Presort First-Class Mail letters and cards estimates, we recalculated
FY 2010 MODS-based productivities by removing zero workhour and zero mail volume
errors at the MODS operation number level, and removing productivities that exceeded
machine throughputs and manual productivities. We inserted the revised productivities
into the FY 2010 First-Class Mail Presort Letters and Cards Cost Model, holding all
other model inputs constant. Overall, our per mailpiece estimate for all presort levels
was .001 cent over the Postal Service estimate. To determine the potential impact a
.001 cent per mailpiece change in discount rates has on Postal Service revenue, we
multiplied the revised per mailpiece estimate for each presort level by FY 2010 presort
mail volume, and estimated the overall impact was $328,011.

We estimate that the FY 2010 avoided cost estimates for Presort Standard Mail Regular
letters was overestimated by a unit cost average of .023 cents per mailpiece. As a
result, holding all other inputs constant, had the workshare discount been .023 cents
lower, the Postal Service would have collected $86,818,955 in additional revenue from
Presort Standard Mail regular letters. To develop our Presort Standard Mail regular
letters estimate, we recalculated FY 2010 MODS-based productivities by removing zero
workhour and zero mail volume errors at the MODS operation number level, and
removing productivities that exceeded machine throughputs and manual productivities.
We inserted the revised productivities into the FY 2010 Standard Mail Regular Presort
Letters Cost Model, holding all other model inputs constant. To determine the potential
impact a .023 cent per mailpiece change in discount rates has on Postal Service
revenue, we multiplied the revised per mailpiece estimate for each presort level by
FY 2010 Standard Mail presort letters mail volume, and estimated the overall impact
was $86,818,955. The actual impact on future revenue streams would depend, in part,
on how many errors are replaced with corrected data. Revenue impacts also depend on
management decisions regarding product pricing made within the limitations of the
Consumer Price Index price cap and unused rate authority available at that time.


                                           17
Management Operating Data System                                                CRR-AR-12-002




                                              Other Impacts

     Finding                                              Impact Category      Amount
                                                                            $1,178,077,000

Impact on Volume Variable Costs

Improving the accuracy of MODS data could have a significant effect on the allocation
of mail processing costs. Had the Postal Service improved the quality of MODS data by
correcting MODS errors, it would have increased the likelihood that past mail
processing volume variability studies would have been accepted by the PRC. If the
Postal Service’s volume variability studies had been accepted, we estimate that as
much as $1,178,077,000 in FY 2010 costs charged to various mail products could be
charged to institutional costs, thereby affecting the cost coverage for various mail
products.

To estimate the potential impact on mail processing volume variability, we recalculated
FY 2010 mail processing volume variability using Postal Service volume variability
estimates developed in PRC Docket Number R2006-1.23 That docket was the last time
the Postal Service proposed volume variability estimates of 85 percent for processing
and distribution centers (PDCs) and other large mail processing facilities, 85 percent for
network distribution centers (NDCs), and 83 percent for non-MODS post offices,
stations, and branches.

In FY 2010, the Postal Service used mail processing volume variability estimates of
95 percent for PDCs and other large mail processing facilities, 94 percent for NDCs,
and 91 percent for non-MODS post offices, stations, and branches. The FY 2010 mail
processing volume variable costs for PDCs, NDCs, and non-MODS offices totaled
$11,423,080,000 using the 95-, 94-, and 91-percent estimates. Using the lower
estimates developed in the 2006 study (85, 85, and 83 percent) the FY 2010 mail
processing volume variable costs totaled $10,245,003,000, for a difference of
$1,178,077,000.

Absent a reliable volume variability study, the PRC has continued to use the assumption
that most mail processing costs are volume variable. As a result, about 94 percent of
the $12.1 billion in FY 2010 mail processing costs were classified as volume variable
($11.4 billion) and directly attributed to postal products. Adoption of Postal Service
volume variability estimates, which are significantly lower than 94 percent, would reduce
mail processing costs that are directly attributable to postal products, and increase
institutional costs by a comparable amount. This transfer occurs because a substantial
component of the mail processing costs treated as volume variable would no longer be
volume variable. This large transfer of costs between attributable and institutional costs
would influence postal rates, costs attributed to postal products, and product cost
coverage.
23
     PRC Docket Number R2006-1, Postal Rate and Fee Changes, 2006.


                                                     18
Management Operating Data System                                         CRR-AR-12-002




                        Appendix C: MODS Operation Numbers

Ten MODS operation numbers account for 71 percent of the zero workhour errors, with
just over 11.1 billion pieces of mail. Focusing corrective action on these operation
numbers would significantly reduce zero workhour errors. Table 3 shows the 10 MODS
operation numbers with the largest workhour errors, by mail volume.

                    Table 3. FY 2010 Top 10 Zero Workhour Errors

Operation                                                                 Zero
 Number           Operation Description            Mail Volume          Workhours




                                          19
Management Operating Data System                                          CRR-AR-12-002




Another 10 MODS operation numbers account for 67 percent of the zero mail volume
errors, and total just over 8 million workhours. Focusing corrective action on these
operation numbers would significantly reduce zero mail volume errors. Table 4 shows
the 10 MODS operation numbers with the highest number of zero mail volume errors,
by workhours.

                   Table 4. FY 2010 Top 10 Zero Mail Volume Errors


   Operation                                         Zero Mail
    Number            Operation Description           Volume          Workhours




                                          20
Management Operating Data System                             CRR-AR-12-002



                         Appendix D: Management’s Comments




                                        21
Management Operating Data System        CRR-AR-12-002




                                   22
Management Operating Data System        CRR-AR-12-002




                                   23
Management Operating Data System        CRR-AR-12-002




                                   24
Management Operating Data System        CRR-AR-12-002




                                   25
Management Operating Data System        CRR-AR-12-002




                                   26
